Record No. _____

In The

Supreme Court of the United States
MICHAEL KENNETH YOUNG, a/k/a Mizzle,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Michael Kenneth Young, requests leave to file the
attached Petition for a Writ of Certiorari to the United States Court of
Appeals for the Fourth Circuit without prepayment of costs and to
proceed in forma pauperis pursuant to Rule 39. The United States
Court of Appeals for the Fourth Circuit appointed counsel to represent
Petitioner. The Order appointing counsel is attached to this motion.
August 9, 2021
Respectfully Submitted,
/s/ W. Michael Duncan
W. Michael Duncan (Fed. ID #6173)
2411 Pineview Drive
Greensboro, North Carolina 27407
(803) 315-4500 phone
Mike.duncan@duncanandheydarylaw.com
Attorney for Petitioner Michael Young

USCA4 Appeal: 19-4823

Doc: 2

Filed: 11/12/2019

Pg: 1 of 2

FILED: November 12, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-4823
(3:15-cr-00051-MBS-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellant
v.
MICHAEL KENNETH YOUNG, a/k/a Mizzle
Defendant - Appellee
___________________
ORDER
___________________
The court appoints William Michael Duncan to represent appellee. Counsel is
referred to the CJA Payment Memorandum and the CJA eVoucher Page for
information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24
voucher for transcript payment. Counsel must also submit a Transcript Order Form

USCA4 Appeal: 19-4823

Doc: 2

Filed: 11/12/2019

Pg: 2 of 2

to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for Registration as
an ECF Filer.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

